HHS/OIG-Audit--"The Administration for Children and Families Review of State Cost-Benefit Analysis Reports for State Automated Data Processing, (A-12-92-00038)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"The Administration for Children and Families Review of State Cost-Benefit
Analysis Reports for State Automated Data Processing Systems," (A-12-92-00038)
March 10, 1993
Complete
Text of Report is available in PDF format (1.05 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This is a final report on the Administration for Children and Families' (ACF)
review of State automated data processing (ADP) cost-benefit analysis reports.
The Office of Inspector General, as a participant in a joint study led by the
Office of Management and Budget (OMB), independently assessed the reporting
and use of cost-benefit information provided by States after ADP implementation.
We concluded that while some of these reports contained useful management information,
they failed to accurately account for all costs and benefits and did not make
the required comparison between estimated and actual costs and benefits to date.
In reviewing the ACF files, we cold not find documentation that ACF staff had
analyzed the reports sufficiently to detect the shortcomings we observed.